No. 19-603

 

IN THE

Supreme Court of the United States

MARK SILGUERO AND AMY WOLFE,

Petitioners,
v.

CSL PLASMA, INC.,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

BRIEF FOR AMICI CURIAE
CURRENT AND FORMER MEMBERS OF
CONGRESS IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,715 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 9, 2019.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
